  __11/07/03     13:UU   FAA 301 903    4t00            UAI'I'AL REGION                 -+ tUK   rlvrEA          I(JUUZ


DOE F 1325.8
(08-93)
United States Government                                                              Department of Energy

                                                                                  OFFICE OF INSPECTOR GENERAL
Memorandum
         DATE: November 7, 2003
    REPLY TO
     ATTN OF:   IG-34 (A03SC050)                                      Audit Report Number: OAS-L-04-04

    SUBJECT:    Audit of the U.S. Large Hadron Collider Program

          TO:   Director, Office of Science, SC-1


                The purpose of this report is to inform you of the results of our audit of the U.S. Large Hadron
                Collider (LHC) Program. The audit was initiated in June 2003, and fieldwork was conducted
                through October 2003 at the Department of Energy's (Department) Headquarters, and the
                Fermi National Accelerator Laboratory. The audit methodology is described in an attachment
                to this report.

                INTRODUCTION AND OBJECTIVE

                The European Laboratory for Particle Physics, CERN, in collaboration with the United States
                (U.S.) and other non-member states, has undertaken constlaction of the LHC, a new high
                energy physics research facility at its laboratory site outside Geneva, Switzerland.
                International participants in the LHC construction project (Construction Project) include
                Canada, India, Japan, Russia, and the U.S. at a total cost of approximately $6 billion. U.S.
                participation includes the Department and the National Science Foundation (NSF).

                The Department's participation in the Construction Project was limited to a total of
                $450 million. This financial commitment includes $200 million to construct portions of the
                LHC Accelerator and $250 million for fabrication of the A Toroidal LHC Apparatus
                (ATLAS) and Compact Muon Solenoid (CMS) detectors. The Department is also providing
                additional funding for U.S. participation in international scientific activities, referred to as the
                U.S. LHC Research Program (Research Program), which will continue after construction is
                complete. Collectively, the Construction Project and Research Program constitute the U.S.
                LHC Program. The objective of our audit was to determine whether the Department was
                properly managing its contributions to the U.S. LHC Program.

                CONCLUSION AND OBSERVATIONS

                Nothing came to our attention to indicate that the Department was improperly managing its
                contributions to the U.S. LHC Program. Our limited review, however, identified three areas
                of concern related specifically to the Construction Project.
11/07/03    13:00 FAX 301 903 4656              CAPITAL REGION               - FORS   'IYrVA        14003




           Project Costs

           We believe the Department's contributions for the Construction Project will exceed the
           $450 million commitment by an estimated $30 million. The commitment will be exceeded
           because the Department used funds designated for high energy physics research to satisfy
           CMS and ATLAS requirements. Specifically, labor costs for over 550 individuals were
           funded through the Office of Science's High Energy Physics "Base Program," which provides
           general support for high energy physics research conducted at the Department's national
           laboratories and other research institutions. Although the budget stated that the funding
           commitment did not include support for research physicists working on the U.S. LHC
           Program, these costs-funded through direct contributions or grants-were not tracked
           against the total project cost or used to monitor progress of the Construction Project.

           The majority of the 550 individuals conducted research necessary to complete fabrication of
           the two LHC detectors, and were associated with collaborating universities or the national
           laboratories. We also noted that Base Program funding covered the costs of key personnel,
           such as the U.S. CMS Project Manager. According to the Department, the use of Base
           Program funding to support High Energy Physics projects is common practice. This practice,
           however, may obscure the true cost of a project and skew earned value reporting and,
           ultimately, may affect the quality of future funding decisions.

           Time Estimates

           We also observed that the amount of time dedicated to the Construction Project was over-
           estimated. Each year the Department obtains estimates for the amount of time scientific
           personnel would dedicate to the Construction Project, and would approve these estimates at
           several levels. However, our review of project documentation identified 17 individuals that
           estimated spending more than 100 percent of their time on various detector subsystems. Some
           of these individuals estimated that up to 200 percent of their time would be dedicated to the
           Construction Project. We estimated the value of time in excess of 100 percent to be
           approximately $648,000. Since the Department does not track the actual time spent by
           scientific personnel on the Construction Project, we were unable to determine the impact of
           this over estimation.

           CERN Direct Purchases

           We also found that the Department made over $46 million in reimbursements for CERN direct
           purchases without receiving all required documentation. As part of the agreement to provide
           these reimbursements, CERN was required to provide the Department with the related
           procurement solicitations. Even though the Department had requested this information, it had
           not been provided, and as of June 2003, reimbursements were being made based on CERN
           furnished invoices and other documents. While our review of available invoices did not




                                                   2
11/07/03    13:UU      FAX   301 903   4656          ;ArF'AL KUREIN                .-   UKb   PIVEA       1.1004




           identify improper payments, we were unable to satisfy ourselves that all payments were
           appropriate because the solicitations were not available.

           SUGGESTED ACTIONS

           In light of these concerns, the Director, Office of Science, should consider taking the
           following actions:

                   *   Require that all project-related costs, regardless of funding source, be clearly
                       identified and quantified in future High Energy Physics projects;

                   *   Evaluate time estimates provided by scientific personnel to ensure that they are
                       reasonable; and,

                   *   Require submission and evaluation of agreed-upon information prior to authorizing
                       payments to participating organizations.

           The concerns noted above were discussed with officials from the Office of Science on
           November 4, 2003.

           We appreciate the cooperation of your staff during our review. If you have any questions
           regarding our audit, please contact Brian Boos at (301) 903-3858 or Bill Lubecke at
           (720) 962-7546.


                                                        Rickey R Hass, Director
                                                        Science, Energy, Technology,
                                                          and Financial Audits
                                                        Office of Audit Services
                                                        Office of Inspector General

             cc:       .Director, Office of Engineering and Construction Management, ME-90
                        Audit Liaison, Office of Science, SC-62
                        Team Leader, Audit Liaison Team, ME-1.1
___/U:/UJ        1:ul    AA. 301 903 4B5O       -,..-   CAPITAL REG1ON             -   run3 rIVEA          4 UUV




                                                                                                    Attachment



    METHODOLOGY

    To accomplish the audit objective, we:

             *      Held discussions with Headquarters officials from the Office of Science and the Office of
                    Engineering and Construction Management in order to gain an understanding of the U.S.
                    Large Hadron Collider (LHC) Program;

             *      Held discussions with officials from the U.S. LHC Program Office and key Project
                    personnel;

             *      Reviewed pertinent U.S. LHC Program documentation, including a limited review at
                    Headquarters of A Toroidal LHC Apparatus (ATLAS) documentation; and,

             *      Reviewed performance related information to determine compliance with the Government
                    Performance and Results Act of 1993.

     The audit was performed in accordance with generally accepted Government.auditing standards for
     performance audits and included tests of internal controls and compliance with laws and regulations
     to the extent necessary to satisfy the audit objective. Because our review was limited, it would not
     necessarily have disclosed all internal control deficiencies that may have existed at the time of our
     audit. Since computer processed data was not the primary support used to meet our audit objective,
     we performed a limited assessment of data reliability. An exit conference was held on November 4,
     2003.
DOE F 1325.8
   (8-89)
EFO (07-90)

United States Government                                                                        Department of Energy

Memorandum
              DATE:     NOV' .       2003
      REPLY     TO:   IG-34 (A03SC050)

       SUBJECT:       Final Report Package for "Audit of the U.S. Large Hadron Collider Program"
                      Audit Report No.: OAS-L-04-04

                TO: Frederick D. Doggett, Assistant Inspector General for Audit Services


                         Attached is the required final report package on the subject audit. The pertinent details are:
                          1.    Actual Staff days:      158

                                 Actual Elapsed days: 141
                         2. Names of OIG and/or contractor audit staff:

                                 Assistant Director:    Kevin Majane
                                 Team Leader:           Bill Lubecke
                                 Auditor-in-Charge:     Brian Boos
                                 Audit Staff:           Katie Shaull

                         3. Coordination with Investigations and Inspections:

                                 Investigations: Vera Shepard/Brenda Froberg

                                 Inspections: Henry Minner

                                 June 13, 2003; September 16, 2003; and November 7, 2003




                                                                       Ricke R. Hass, Director
                                                                       Science, Energy, Technology,
                                                                         and Financial Audits
                                                                       Office of Audit Services
                                                                       Office of Inspector General
                         Attachments:
                         1. Final Report (3)
                         2. Monetary Impact Report
                         3. Audit Project Summary Report
                         4. Audit Database Information Sheet
                       MONETARY IMPACT OF REPORT NO.: OAS-L-04-04


1. Title of Audit:       Audit of the U.S. Large Hadron Collider Program

2. Division:             SETFA

3. Project No.:          A03SC050

      4. Type of Audit:

       Financial:                                          Performance:        X
         Financial Statement                                 Economy and Efficiency
         Financial Related                                   Program Results                       X
       Other (specify type):

5.

                                                                                                  MGT.      POTENTIAL
          FINDING                   COST                       QUESTIONED COSTS                 POSITION     BUDGET
                               AVOIDANCE                                                                     IMPACT
(A)             (B)           (C)       (D)          (E)        (F)       (G) .       (H)          (1)          (J)
               Title         One     Recurring    Questioned   Unsup-    Unre-       Total .    C=Concur      Y=Yes
                             Time     Amount                   ported    solved   (E)+(F)+(G)   N=Noncon      N=No
                                      PerYear                                                   U=Undec




TOTALS--ALL FINDINGS                             ____




6. Remarks: There is no current monetary impact or potential future savings.

7. Contractor:                                      10. Approvals:       /
8. Contract No.:                                    Division Director/Date:'/,                  I( /I, 0o
9. Task Order No.:                                  Technical Advisor & Date
                                                     Office of the Inspector General                      (OIG)

                                                   Audit Project Office Summary                            (APS)

                                                                                                                                        Page 1
Report run on:                           November 7, 2003 12:14 PM


  Audit#: A03SC050                      Ofc:   FOA     Title: U.S.          LARGE HADRON COLLIDER PROJECT

                                                                   ****     Milestones     ****

                                                      Planned              End of Survey                Revised         Actual


   Entrance Conference:.....                         09-JUN-03                                    19-JUN-03          19-JUN-03

   Survey:..................                                                                      15-SEP-03           15-SEP-03
   Draft Report:.............                        30-NOV-03                                    30-NOV-03          23-OCT-03
   Completed (With Report):.                         09-DEC-03              15-SEP-03             30-DEC-03           07-NOV-03   (R)
   -----------             Elapsed Days:                   183                     88                                     141
                                                                                                           Elap.   Less Susp:
   Date Suspended:                                                      Date Terminated:
   Date Reactivated:                                                     Date Cancelled:
   DaysSuspended(Cur/Tot):                             (               ) Report Number:           OAS-L-04-04
   Rpt Title:                                                             Report Type:            LTR     LETTER REPORT
   AUDIT OF THE U.S. LARGE HADRON COLLIDER PROGRAM



                                                      ****   Audit Codes and Personnel ****
   Class:             PER        PERFORMANCE
   Program:           SC        Not Found
  MgtChall: 103                 PERFORMANCE MANAGEME
                                                                                         AD:      530      MAJANE
   Site:             MRA        MULTI-REGION AUDIT
                                                                                        AIC:      670      BOOS
   SecMiss:          SCI        SCIENCE
                                                                                Team Ldr:         232      LUBECKE
   PresInit:                    Not Found                                       Tech Adv:         421      SCHULMAN

                                                           ****    Task Information ***_

          Task No:
          Task Order Dt:                                                CO Tech. Rep:
          Orig Auth Hrs:                                                Orig Auth Costs:
          Current Auth:                                                 Current Auth Cost:
          Tot Actl IPR Hr:                                              Tot Actl Cost:


                                                                   S***Time Charges       ****

                           Emp/Cont Name>              N          sa           Last Date

                           CAMPBELL,      A                       1.3          01-NOV-03
                           VERMILLION,         S                  2.9          18-OCT-03
                           LUBECKE,       W                       3.0          20-SEP-03
                           WILLIAMS,       L                      4.4          26-JUL-03
                           SHAULL, K                          72.6             01-NOV-03
                           BOOS, B                            74.1             01-NOV-03
                               Total:                        158.3
                                         Office of the Inspector General (OIG)'
                                       Audit Project Office Summary                 (APS)

                                                                                                         Page 2
Report run on:                    November 7, 2003 12:14 PM

                                           ****   Keywords ****


                    BASE PROGRAM

                    LARGE HADRON COLLIDER

                    PROJECT MANAGEMENT
                    SCIENCE



                     S****;.Location                   Information ****
       Code      Description

       FNL       FERMI NATIONAL ACCELERATO


                                         ****Finding    Information **** Bud       Mat          p          ept
       Find#                Title                           Amount        Yrs I   o Pos   Pos   Amount    Date




                                                   Audit Objective


       Audit Number:        AO3SCO50                           Objective Date: 09-JUN-03

        Title:    U.S. LARGE HADRON COLLIDER PROJECT


       Objective Text:
   TO DETERMINE WHETHER THE DEPARTMENT IS PROPERLY MANAGING ITS CONTRIBUTIONS.TO THE LARGE
   HADRON COLLIDER PROJECT.




                                                  Audit Report Su.nary

   Audit No:                  I03SCO50
                                    Rpt     summary Date:     07-NOV-03

   r
       itle:      .S. LARGE HADRON COLLIDER PROJECT

   Report Summary Text:
  SNOTHING CAME TO OUR ATTENTION TO INDICATE THAT THE DEPARTMENT WAS IMPROPERLY MANAGING ITS
   CONTRIBUTIONS TO THE U.S. LHC PROGRAM. OUR LIMITED REVIEW, HOWEVER, IDENTIFIED THREE
   AREAS OF CONCERN RELATED SPECIFICALLY TO THE.CONSTRUCTION PROJECT.



   PROJECT COSTS:

     EBELIEVE THE DEPARTMENT'S CONTRIBUTIONS FOR THE CONSTRUCTION PROJECT WILL EXCEED ITS
   $450 MILLION COMMITMENT BY AN ESTIMATED $30 MILLION. THE COMMITMENT WILL BE EXCEEDED
   BECAUSE THE DEPARTMENT USED FUNDS DESIGNATED FOR HIGH ENERGY PHYSICS RESEARCH TO SATISFY
   CMS AND ATLAS REQUIREMENTS.  SPECIFICALLY, LABOR COSTS FOR OVER 550 INDIVIDUALS WERE
   FUNDED THROUGH THE OFFICE OF SCIENCE'S HIGH ENERGY PHYSICS "BASE PROGRAM," WHICH PROVIDES
    ENERAL SUPPORT FOR HIGH ENERGY PHYSICS RESEARCH CONDUCTED AT THE DEPARTMENT'S NATIONAL
    ABORATORIES AND OTHER RESEARCH INSTITUTIONS.  ALTHOUGH THE BUDGET STATED THAT THE FUNDING
                              Office of the Inspector General (OIG)
                            Audit Project Office Summary        (APS)

                                                                                       Page 3
Report run on:        November 7, 2003 12:14 PM




   COMMITMENT DID NOT INCLUDE SUPPORT FOR RESEARCH PHYSICISTS WORKING ON THE U.S. LHC
   PROGRAM, THESE COSTSeFUNDED THROUGH DIRECT CONTRIBUTIONS OR GRANTSZWERE NOT TRACKED
   AGAINST THE TOTAL PROJECT COST OR USED TO MONITOR PROGRESS OF THE CONSTRUCTION PROJECT.

   THE MAJORITY OF THE 550 INDIVIDUALS CONDUCTED RESEARCH NECESSARY TO COMPLETE FABRICATION
   OF THE TWO LHC DETECTORS, AND WERE ASSOCIATED WITH COLLABORATING UNIVERSITIES OR THE
   NATIONAL LABORATORIES.  WE ALSO NOTED THAT BASE PROGRAM FUNDING COVERED THE COSTS OF KEY
   PERSONNEL, SUCH AS THE U.S. CMS PROJECT MANAGER. ACCORDING TO THE DEPARTMENT, THE USE OF
   BASE PROGRAM FUNDING TO SUPPORT HIGH ENERGY PHYSICS PROJECTS IS COMMON PRACTICE.  THIS
   PRACTICE, HOWEVER, MAY OBSCURE THE TRUE COST OF A PROJECT AND SKEW EARNED VALUE REPORTING
    AD, ULTIMATELY, MAY AFFECT THE QUALITY OF FUTURE FUNDING DECISIONS.

   TIME ESTIMATES:

   WE ALSO OBSERVED THAT THE AMOUNT OF TIME DEDICATED TO THE CONSTRUCTION PROJECT WAS OVER-
    STIMATED.  EACH YEAR THE DEPARTMENT OBTAINS ESTIMATES FOR THE AMOUNT OF TIME SCIENTIFIC
   PERSONNEL WOULD DEDICATE TO THE CONSTRUCTION PROJECT, AND WOULD APPROVE THESE ESTIMATES AT
   SEVERAL LEVELS.  HOWEVER, OUR REVIEW OF PROJECT DOCUMENTATION IDENTIFIED 17 INDIVIDUALS
   THAT ESTIMATED SPENDING MORE THAN 100 PERCENT OF THEIR TIME ON VARIOUS DETECTOR
   SUBSYSTEMS.  SOME OF THESE INDIVIDUALS ESTIMATED THAT UP TO 200 PERCENT OF THEIR TIME
   WOULD BE DEDICATED TO THE CONSTRUCTION PROJECT. WE ESTIMATED THE VALUE OF TIME IN EXCESS
   OF 100 PERCENT TO BE APPROXIMATELY $648,000.  SINCE THE DEPARTMENT DOES NOT TRACK THE
   ACTUAL TIME SPENT BY SCIENTIFIC PERSONNEL ON THE CONSTRUCTION PROJECT, WE WERE UNABLE TO
   DETERMINE THE IMPACT OF THIS OVER ESTIMATION.

    ERN DIRECT PURCHASES:

   WE ALSO FOUND THAT THE DEPARTMENT MADE OVER $46 MILLION IN REIMBURSEMENTS FOR CERN DIRECT
   PURCHASES WITHOUT RECEIVING ALL REQUIRED DOCUMENTATION. AS PART OF THE AGREEMENT TO
   PROVIDE THESE REIMBURSEMENTS, CERN WAS REQUIRED TO PROVIDE THE DEPARTMENT WITH THE RELATED
   PROCUREMENT SOLICITATIONS.  EVEN THOUGH THE DEPARTMENT HAD REQUESTED THIS INFORMATION, IT
   HAD NOT BEEN PROVIDED, AND AS OF JUNE 2003, REIMBURSEMENTS WERE BEING MADE BASED ON CERN
   FURNISHED INVOICES AND OTHER DOCUMENTS.  WHILE OUR REVIEW OF AVAILABLE INVOICES DID NOT
   IDENTIFY IMPROPER PAYMENTS, WE WERE UNABLE TO SATISFY OURSELVES THAT ALL PAYMENTS WERE
   APPROPRIATE BECAUSE THE SOLICITATIONS WERE NOT AVAILABLE.
                                Office of the Inspector General (OIG)
                              Audit   Project Office Summary        (APS)

                                                                                           Page 4
Report run on:           November 7, 2003 12:14 PM


                                        Audit History

  Audit No:   A03SC050                History Date:     20-JUN-03
  History Text:
  CONDUCTED ENTRANCE CONFERENCE WITH OFFICE OF SCIENCE REPRESENTATIVES ON JUNE 19, 2003.
  {BKB}




                                        Audit History

 Audit No:    A03SC050                History Date:     27-JUN-03
  History Text:
  REVIEWING/TESTING CERN DIRECT PURCHASES; REVIEWING FERMI FIELD WORK PROPOSALS;   IN GENERAL
  PREPARING FOR OUR TRIP TO FERMI THE WEEK OF JULY 7, 2003. {BKB}




                                        Audit History

 Audit No:    A03SC050                History Date:     03-JUL-03
 History Text:
  REVIEW OF CERN DIRECT PURCHASES IS ALMOST COMPLETE. REVIEWED FERMI FWP'S AND FOUND
  REFERENCES TO LHC IN BASE PROGRAM AND RESEARCH PROGRAM PROPOSALS; WILL TRY TO DISCUSS WITH
  LINDY WHILE AT FERMI.  IN GENERAL, COMPLETING PREPARATIONS FOR FERMI VISIT.  {BKB}




                                        Audit History

 Audit No:    A03SC050                History Date:   14-JUL-03
 History Text:
  WAS IN FERMI FROM 7/7 THRU 7/11, 2003.    {BKB}




                                        Audit History

 Audit No:    A03SC050                History Date:   18-JUL-03
 History Text:
  REVIEWING INFORMATION FROM FERMI VISIT AND PUTTING INTO TEAMMATE.  HELD NSF OIG
  COORDINATION MEETING ON 7/10 AT NSF (KEVIN/GEORGE) TO DISCUSS AUDIT. THE AUDIT TEAM HAD
  FURTHER DISCUSSIONS VIA TELEPHONE WITH THE NSF OIG ON 7/17, AND AGAIN ON 7/18 (INCLUDING
  RICK).  A FACE-TO-FACE MEETING HAS BEEN SCHEDULED FOR 7/29 IN GTN TO DISCUSS COMMON ISSUES
  AND HOW A JOINT DOE/NSF AUDIT SURVEY WOULD BE CONDUCTED.  {BKB}
                                Office of the Inspector General (OIG)
                              Audit   Project Office Summary          (APS)

                                                                                       Page 5
Report run on:           November 7, 2003 12:14 PM


                                        Audit History

  udit No':   A03SC050                History Date:     28-JUL-03
  History Text:
  IN SCOTTSDALE FOR ALL-HANDS TRAINING FROM 7/21-7/25, 2003.        {BKB}




                                        Audit History

  Audit No:   A03SC050                History Date:     01-AUG-03
  History Text:
  COMPLETING WORKPAPERS FROM FERMI VISIT. MET (KEVIN, BRIAN, KATIE) WITH NSF OIG IN GTN ON
  7/29 TO DISCUSS JOINT AUDIT. NSF OIG WILL WAIT FOR OUR EOS DECISION BEFORE APPROACHING US
  AGAIN ABOUT JOINT AUDIT.  IN THE MEANTIME, THEY WILL DEVELOP AN IDEA OF WHAT THEY WANT TO
  DO, HOW WE CAN COLLABORATE, WHEN STAFF WILL BE AVAILABLE, AND HOW THEY WILL BE UTILIZED.
  THEY WILL ALSO WORK THROUGH US IN THE NEAR TERM TO GET QUESTIONS ANSWERED THAT REQUIRE DOE
  INPUT.  REFERENCED MCNEIL BIOMASS REPORT (A03SC016) ON 7/31 (AFTERNOON) AND 8/1 (MORNING).
  {BKB)

                                        Audit History

  Audit No:   A03SC050                History Date:     08-AUG-03
  History Text:
  COMPLETED REFERENCING ON MCNEIL BIOMASS REPORT (A03SC016).  WAS DOWNTOWN ON 8/2/03 FOR
  MEETING WITH ME-20 TO DISCUSS PERFORMANCE MEASURES.  BRIEFED KEVIN, BILL LUBECKE, AND JILL
  ABOUT THE STATUS OF THE US LHC AUDIT ON 8/6/03.. MET WITH HIGH ENERGY PHYSICS (HEP) ON 8/7
  (GLEN CRAWFORD) AND 8/8 (AESOOK BYON-WAGNER) TO PROVIDE THEM WITH THE STATUS OF THE AUDIT,
  WHAT OUR CONCERNS WERE REGARDING THE US LHC PROGRAM (OFF-PROJECT NATURE OF PHYSICISTS
  INVOLVED WITH CONSTRUCTION ACTIVITIES (BASE PROGRAM), AND COMMISSIONING COSTS FOR THE
  DETECTORS.  REQUESTED HEP PROVIDE US WITH INFORMATION REGARDING THE AUTHORITY OF THE BASE
  PROGRAM AND WHAT IT CAN/CANNOT BE USED FOR.  IN PROCESS OF QUANTIFYING OFF-PROJECT COSTS
  FOR 1999-2003.   {BKB}

                                        Audit History

  Audit No:   A03SC050                History Date:   15-AUG-03
  History Text:
  DEVELOPED ROUGH ESTIMATES OF US CMS OFF-PROJECT CONSTRUCTION COSTS FOR 1999-2003.  RECEIVED
  US ATLAS DATA LATE IN WEEK, DEVELOPED ROUGHT OFF-PROJECT ESTIMATES FOR THIS DETECTOR AS
  WELL.  DISCUSSED OUR CONCERNS WITH HIGH ENERGY PHYSICS (AESOOK BYON-WAGNER) AND SCIENCE
  BUDGET OFFICE (JEFF AUCHMOODY) ON 8/14/03.  THEY EXPRESSED SOME CONCERNS ABOUT ANY
  POTENTIAL FINDING/RECOMMENDATIONS WE MAY HAVE. AUDIT TEAM (BRIAN, KATIE, BILL LUBECKE)
  PROVIDED RICK WITH A STATUS ON 8/15/03 (INCLUDING SOME OF MANAGEMENT'S CONCERNS).  WE
  REQUESTED AN ADDITIONAL THREE WEEKS TO WORK ON THE AUDIT (THROUGH 9/5/03).  RICK SAID TO
  KEEP WORKING THE AUDIT, AND THAT HE WOULD PROVIDE OUR STATUS HANDOUT TO BILL MAHARAY FOR
  HIS INPUT.  {BKB}
                                 Office of the Inspector General (OIG)
                              Audit Project Office Summary          (APS)
                                                                                        Page 6
Report run on:           November 7,   2003 12:14 PM


                                          Audit History


  Audit No:   A03SC050                  History Date:   25-AUG-03
  History Text:
  DISCUSSED OUR CONCERNS REGARDING THE OFF-PROJECT NATURE OF PHYSICISTS WITH OECM (JIM
  RISPOLI AND DAVE TREACY) ON 8/15/03: THEY SAID THAT PHYSICISTS WORKING 100% ON THE PROJECT
  AND KEY PROJECT PERSONNEL SHOULD BE CHARGED TO THE PROJECT.  PROVIDED THIS INFORMATION TO
  RICK AND TO KEVIN MAJANE (VIA E-MAIL) ON 8/15/03.  WILL RE-WORK NUMBERS BASED ON DISCUSSION
  WITH OECM.  WORKING ON QUANTIFYING OFF-PROJECT NATURE OF US ATLAS.  {BKB}


                                          Audit History

  Audit No:   A03SC050                  History Date:   29-AUG-03
  History Text:
  DISCUSSED PROJECT STATUS ON 8/26/03 (KEVIN, BILL L., KATIE, BRIAN).   AGREED TO CONVERT
  STATUS DOCUMENT TO END OF SURVEY DOCUMENT, WITH OFFICIAL END OF SURVEY PLANNED FOR 9/8/03
  (KEVIN INFORMED RICK AND REQUESTED THIS EOS DATE).   RE-WORKED OUR NUMBERS TO STRATIFY OFF-
  PROJECT COSTS INTO 25-PERCENT INCREMENTS. WORKING ON COMPLETING AUDIT WORK PRIOR TO EOS.
  ATTEMPTING TO SCHEDULE MEETING WITH THE CONSTRUCTION MANAGEMENT SUPPORT DIVISION (SC-81) TO
  PROVIDE THEM WITH OUR CONCERNS REGARDING THE US LHC.   {BKB}

                                          Audit History

  Audit No:   A03SC050                  History Date:   05-SEP-03
  History Text:
  DISCUSSED OUR CONCERNS REGARDING THE LHC WITH THE CONSTRUCTION MANAGEMENT SUPPORT DIVISION
   (STEVE MEADOR, SC-81) ON 9/2/03.  MET WITH HIGH ENERGY PHYSICS (AESOOK BYON-WAGNER, MOISHE
  PRIPSTEIN; GLEN CRAWFORD) ON 9/4/03 IN ORDER TO DO A "REALITY" CHECK REGARDING OUR
  UNDERSTANDING OF THE LHC AND TO DO A "REASONABLENESS" CHECK REGARDING THE ASSUMPTIONS AND
  METHODOLOGY WE USED TO CALCULATE OFF-PROJECT COSTS.   REFERENCED THE LETTER REPORT ON ORNL
  PROCUREMENT (A03NE045) ON 9/2-9/3/03.   WORKING ON COMPLETING OUR CALCULATIONS OF OFF-
  PROJECT COSTS, AS WELL AS THE NUMBER OF PERSONNEL THAT ARE OFF-PROJECT.   DRAFTING END OF
  SURVEY DOCUMENT.   EOS IS PLANNED FOR 9/8/03.  {BKBY

                                          Audit History

  Audit No:   A03SC050                  History Date:   11-SEP-03
  History Text:
   [INTERIM HISTORY]  CONDUCTED END OF SURVEY MEETING ON 9/10/03 (RICK, KEVIN, BILL LUBECKE,
  KATIE, AND MYSELF).   AFTER THE MEETING, RICK AND KEVIN DISCUSSED OUR CONCERNS WITH BILL
  MAHARAY.   IT WAS DECIDED THAT WE SHOULD APPROACH OECM AGAIN REGARDING THEIR SUPPORT FOR OUR
  FINDING.   IT WAS ALSO DECIDED THAT WE SHOULD APPROACH NASA TO UNDERSTAND HOW THEY ACCOUNT
  FOR SCIENTISTS WORKING ON THEIR PROJECTS.   THE END OF SURVEY DECISION HAS NOT YET BEEN
  MADE; WE WILL MEET WITH RICK AGAIN AFTER OUR OECM AND NASA INQUIRIES.   HOWEVER, IT WAS
  EXPLAINED THAT (1) IF OECM SUPPORTS US, THEN WE WOULD ISSUE A BLUE BOOK REPORT (WITH THE
  OPTION OF EXPANDING/REVISING THE OBJECTIVE TO INCLUDE OTHER PROJECTS); OR (2) IF OECM DOES
  NOT SUPPORT US, THEN WE WOULD ISSUE A LETTER REPORT UNDER A BLUE COVER (THIS WAS DESCRIBED
  AS BEING A SHORT BLUE BOOK REPORT).   {BKB}
                                Office of the Inspector General (OIG)
                              Audit   Project Office Summary        (APS)
                                                                                                     Page 7
Report run on:           November 7, 2003 12:14 PM


                                        Audit History

  Audit No:   A03SC050                History Date:   12-SEP-03
  History Text:
  REFERENCED 2003 FISMA ON 9/6/03 AND 9/8/03.  DISCUSSED OUR FINDING WITH OECM (JIM RISPOLI
  AND DAVE TREACY) ON 9/11/03.  DISCUSSED THE AUDIT AGAIN WITH THE DIVISION DIRECT (AND
  KEVIN, BRIAN, AND KATIE) ON 9/12/03; INFORMED TEAM LEADER OF THE DISCUSSION. REVISED EOS
  DOCUMENT TO INCLUDE SUMMARY OF DISCUSSION WITH OECM. PROVIDED REVISED EOS TO TEAM LEADER
  AND ASSISTANT DIVISION DIRECTOR ON 9/12/03.  {BKB}


                                        Audit History

  Audit No:   A03SC050                History Date:   17-SEP-03
  History Text:
  DIVISION DIRECTOR WAS PROVIDED WITH REVISED EOS, AND IT WAS SIGNED, ON 9/15/03.           A    "GO"
  DECISION WAS APPROVED.  {BKB}




                                        Audit History

   udit No:   A03SC050                History Date:   22-SEP-03
  History Text:
  REFERENCED CHANGES TO DOE FISMA 2003 ON 9/16/03.  ADVISED HIGH ENERGY PHYSICS ON 9/16/03
  THAT WE WOULD BE PROCEEDING INTO THE NEXT PHASE OF THE AUDIT (VERIFICATION). CONTACTED
  NASA TO OBTAIN INFORMATION ON COSTING OF SCIENTIFIC EFFORT FOR ITS PROJECTS.  REFINING
  NUMBER OF OFF-PROJECT PERSONNEL AND ASSOCIATED COSTS FOR US LHC.  GOV'T WAS CLOSED 9/18 &
  9/19 DUE TO HURRICANE ISABEL.  {BKB}


                                        Audit History

  Audit No:   A03SC050                History Date:   26-SEP-03
  History Text:
  REFINED OFF-PROJECT COSTS.    ESTABLISHED LINK BETWEEN OFF-PROJECT PERSONNEL (SCIENTISTS) AND
  HEP "BASE PROGRAM" GRANTS.    COMPLETING/REVIEWING WORKPAPERS IN TEAMMATE.  {BKB}




                                        Audit History

  Audit No:   A03SC050                History Date:     03-OCT-03
  History Text:
  CONTINUING WITH WORKPAPER COMPLETION IN TEAMMATE.      MET WITH TEAM LEADER   (BILL L.)       ON
  9/30/03 TO DISCUSS STATUS OF AUDIT.  {BKB}
                                Office of the Inspector General (OIG)
                              Audit   Project Office Summary       (APS)
                                                                                        Page 8
Report run on:           November 7, 2003 12:14 PM


                                        Audit History

  Audit No:   A03SC050                History Date:   .08-OCT-03
  History Text:
  THE AUDIT TEAM (KEVIN, BRIAN, KATIE) DISCUSSED THE STATUS OF AUDIT WITH OIG MANAGEMENT
  (BILL M., FRED, RICK, JILL, (AND STU YOUNG)) ON 10/6/03.   BILL M. SUGGESTED WE BRIEF GREG
  FRIEDMAN ON OUR FINDING. MEETING TO BRIEF GREG WAS TENTATIVELY SCHEDULED FOR 10/9.    RICK
  INFORMED THE AUDIT TEAM ON 10/7 THAT GREG WAS BRIEFED ON OUR FINDING AND THAT GREG (AND
  BILL M. & FRED) DID NOT SUPPORT IT.   THE AUDIT TEAM MET ON 10/7 TO DISCUSS - WE WILL WRITE
  A LETTER REPORT WITH SUGGESTIONS.   {BKB}

                                        Audit History

  udit No:    A03SC050                History Date:   10-OCT-03
  History Text:
  DRAFTED LETTER REPORT AND PROVIDED TO ASSISTANT DIVISION DIRECTOR ON 10/10/03.   COMPLETING
  WORKPAPERS IN TEAMMATE.  {BKB}




                                        Audit History

  Audit No:   A03SC050                History Date:   20-OCT-03
  History Text:
  [FOR WEEK OF 10/13/03]: MADE REVISIONS TO DRAFT LETTER REPORT BASED ON INPUT FROM ASSISTANT
  DIVISION DIRECTOR.  INDEXING DRAFT LETTER REPORT.  COMPLETING WORKPAPERS IN TEAMMATE.
  {BKB}




                                        Audit History

  Audit No:   A03SC050                History Date:   24-OCT-03
  History Text:
  INFORMED HIGH ENERGY PHYSICS (AESOOK BYON-WAGNER) ON 10/20/03 OF OUR DECISION TO END THE
  AUDIT AND ISSUE A LETTER REPORT.  DISCUSSED DRAFT LETTER REPORT WITH DIVISION DIRECTOR ON
  10/23/03; MAKE REQUIRED CHANGES TO DRAFT REPORT.  INDEXING CHANGES TO DRAFT REPORT.
  CONTINUING WORKPAPER REVIEW, CLEARING COACHING NOTES, ETC.  AMY CAMPBELL HAS BEEN ASSIGNED
  AS REFERENCER.  {BKB}


                                        Audit History

  Audit No:   A03SC050                History Date:   31-OCT-03
  History Text:
  PROVIDED TEAMMATE FILE TO REFERENCER (AMY CAMPBELL) ON 10/27/03.. PROVIDED HEP WITH A PRE-
  EXIT BRIEFING ON THE CONTENTS OF OUR LETTER REPORT ON 10/28/03.  EXIT CONFERENCE HAS BEEN
  SCHEDULED FOR 11/4/03.  STARTED PRELIMINARY WORK ON NEXT AUDIT.  {BKB}
                                Office of the Inspector General (OIG)
                              Audit Project Office Summary (APS)
                                                                                       Page 9
Report run on:           November 7, 2003 12:14 PM


                                        Audit History

  Audit No:   A03SC050                History Date:   07-NOV-03
  History Text:
  EXIT CONFERENCE .CONDUCTED 11/4/03. CLEARED ALL REFERENCING POINTS AND PROVIDED FINAL
  LETTER TO DIVISION DIRECTOR ON 11/6 FOR HIS REVIEW AND SIGNATURE.  DIVISION DIRECTOR SIGNED
  LETTER REPORT ON 11/7/03.   {BKB}
                                                                                 Attachment 4

                    AUDIT DATABASE INFORMATION SHEET


1. Project No.: A03SC050

2. Title of Audit: Audit of the U.S. Large Hadron Collider Program

3. Report No./Date: OAS-L-04-04, November 7, 2003

4. Management Challenge Area: Performance Management

5. Presidential Mgmt Initiative: None

6. Secretary Priority/Initiative: None

7. Program Code: SC

8. Location/Sites: Headquarters and the Fermi National Accelerator Laboratory.

9. Finding Summary:

       Nothing came to our attention to indicate that the Department was improperly managing
       its contributions to the U.S. Large Hadron Collider (LHC) Program. Our limited review,
       however, identified three areas of concern related specifically to the U.S. LHC
       Construction Project (Construction Project).

       We believe that the Department's contributions for the Construction Project will exceed
       its $450 million commitment by an estimated $30 million. The commitment will be
       exceeded because the Department used funds designated for high energy physics research
       to satisfy CMS and ATLAS requirements. Specifically, labor costs for over 550
       individuals were funded through the Office of Science's High Energy Physics "Base
       Program," which provides general support for high energy physics research conducted at
       the Department's national laboratories and other research institutions.

       We also observed that the amount of time dedicated to the Construction Project was over-
       estimated. Our review of project documentation identified 17 individuals that estimated
       spending more than 100 percent of their time on various detector subsystems. We
       estimated the value of time in excess of 100 percent to be approximately $648,000.

       We also found that the Department made over $46 million in reimbursements for CERN
       direct purchases without receiving all required documentation. While our review of
       available invoices and'other documentation did not identify improper payments, we were
       unable to satisfy ourselves that all payments were appropriate because the required
       procurement solicitations were not available.
10. Keywords:

   *   Base Program
   *   Large Hadron Collider
   *   Project Management
   *   Science
